NO. 19-0397
IN THE SUPREME COURT OF TEXAS
AUSTIN, TEXAS
__________________________________________________________________
JAMES K. COLLINS AND TONI SHARRETTS COLLINS,
v.

Petitioners

D.R. HORTON-TEXAS, LTD.,
Respondent.
__________________________________________________________________
On Appeal from Cause No. 14-17-00764-CV
Fourteenth Court of Appeals
Houston, Texas
__________________________________________________________________
PETITIONERS’ AMENDED MOTION FOR REHEARING
__________________________________________________________________
TONI L. SHARRETTS COLLINS
State Bar No. 24037476
11054 North Hidden Oaks
Conroe, Texas 77384
(281) 827-7749 - Telephone
iceattorney@aol.com - email
ATTORNEY FOR PETITIONERS

ISSUES PRESENTED FOR REHEARING
“You must never steal a man’s land by moving the boundary marker.”
DEUTERONOMY 19:14. Particularly when he is not joined in the suit to defend
it. TEX. CONST. art. I § 19.
I.

Horton failed to demonstrate that the federal courts’ judgment was
binding on Collins and failed to reconcile it and their erroneous survey
with the contradicting records of the Texas General Land Office. Did the
Court of Appeals err by affirming summary judgment?

II.

With no notice to the landowners of the Sieberman Survey, a federal trial
court opined that the Survey did not exist, extinguishing the vested rights
of Texas landowners. Can any court do so, consistent with Texas real
property law, and is any such decision binding in subsequent cases?

2

INTRODUCTION
Frederick Sieberman fought for the independence of Texas from Mexico. On
March 27, 1836, he and over 400 other Texians were massacred at Goliad. For his
service, the State of Texas issued Sieberman a first-class headright of land, the
Frederick Sieberman Survey, memorializing his heroism.1 In 1944, a federal trial
court, later affirmed by the Fifth Circuit Court of Appeals, using an erroneous
survey, effectively held that the Sieberman Survey did not exist, purportedly
stripping Sieberman’s heirs and successors of their vested property rights without
ever joining them to the case in which it rendered its judgment.

Petitioners

(“Collins”) acquired title from Frederick Sieberman’s successors in interest that was,
and to this day, is still descended from the sovereign Republic of Texas.
SUMMARY OF THE ARGUMENT
The Court of Appeals Opinion turns, in large part, on the validity and binding
nature of a 1944 federal judgment and appellate holding, McComb v. McCormack,
159 F.2d 219 (5th Cir. 1947), that opined out of existence the Sieberman Survey, a
land grant from the sovereign Republic of Texas that still exists in the records of the
Texas General Land Office (“GLO”). Those records openly contradict the sole basis
for the Horton’s summary judgment argument in the trial court—that the disputed

1

See Certificate No. 109, “Frederick Seibermann,” Texas General Land Office archives,
Vol. 17, No. 325 (May 8, 1866). The official documentation of the land grant is also available at
http://www.glo.texas.gov/ncu/SCANDOCS/archives_webfiles/arcmaps/webfiles/landgrants/PDFs/3/1/1/311087.pdf.

3

property boundaries were fixed as Horton would have them over seventy years ago.
But neither Collins nor any party in privity with Collins nor any owner of the
Sieberman Survey was made a party to the federal suit. Consequently, the Fifth
Circuit’s 1947 decision had the effect of taking away vested property rights from
parties and their successors who were never even made aware of the lawsuit at a time
when it could have been challenged directly. Under any sensible reading, this is a
miscarriage of justice. This Court should accept review to determine whether a trial
court can “extinguish” an existing patented land survey certified by the GLO on
summary judgment based solely on a questionable federal judgment.
But even if the presence of that federal court judgment in the Montgomery
County record were sufficient to provide some sort of notice, it is contradicted by
Texas records that are as old as the Republic of Texas, itself. The Sieberman Survey
is a part of the records of the oldest agency in the State of Texas, and that public
record provided a counter to the federal court judgment on which the trial and
appellate courts relied that should have precluded summary judgment. At the very
least, a fact issue existed as to the effect to be given the federal judgment in the face
of vested property rights granted by the sovereign state, itself.

4

ARGUMENT
I.

Horton failed to demonstrate that the federal courts’ judgment was
binding on Collins and failed to reconcile it and their erroneous survey
with the contradicting records of the Texas General Land Office. Did the
Court of Appeals err by affirming summary judgment?
Summary judgments must stand on their own merits, and a traditional

summary-judgment movant must prove its right to judgment as a matter of law. City
of Houston v. Clear Creek Basin Auth., 589 S.W.2d 671, 678 (Tex. 1979).
Traditional summary judgments can be affirmed on appeal only if any of the theories
advanced are meritorious, and the movant produced evidence—free from
contradiction—that established its right. Carr v. Brasher, 776 S.W.2d 567, 569
(Tex. 1989); Texas Star-Telegram, Inc. v. Doe, 915 S.W.2d 471, 473 (Tex. 1995).
When a movant fails to meet its initial summary judgment burden, the summary
judgment cannot stand regardless of whether the non-movant responds. Grynberg
v. Grey Wolf Drilling Co., 296 S.W.3d 132, 137 & n.13 (Tex. App.—Houston [14th
Dist.] 2009, no pet.) (summary judgment must stand on its own merits; non-movant
has no burden to respond unless movant conclusively establishes entitlement to
summary judgment).
A.

Horton failed to meet its summary judgment burden

“A defendant who moves for summary judgment on the basis of an affirmative
defense must conclusively prove all essential elements of that defense.” Swilley v.
Hughes, 488 S.W.2d 64, 67 (Tex. 1972). Quasi-estoppel is an affirmative defense.
5

Swilley v. McCain, 374 S.W.2d 871, 875-76 (Tex. 1964). Horton moved for
summary judgment on the affirmative defense of quasi-estoppel. Horton could not
prevail as a matter of law.
i)

Collins consistently challenged the validity and binding nature of the
federal court judgment upon which Horton relied.

The Court of Appeals held that Collins failed to challenge Horton’s asserted
summary judgment theory of quasi-estoppel in their opening brief. Opinion, at pp.
5-6. Horton argued in the trial court that the deed by which Collins acquired their
homestead in the David Thomas survey referenced a subdivision plat that in turn
referenced the 1944 federal court judgment. Id. Collins’ homestead and plat are not
in the Sieberman survey. It is the federal court judgment—not a recorded deed that
merely references it obliquely—that lies at the heart of Collins’ argument.
Challenging the applicability and binding effect of that judgment challenges the
effect of the deed and answers Horton’s quasi-estoppel contention. “Notice” of a
proceeding that could not and did not bind Collins was no “notice,” at all.
ii)

Demonstrating the Constitutionally valid and binding nature of the
federal court judgment was a part of Horton’s summary judgment
burden that it did not undertake.

In the latter regard, the notion that the holders of property from the Sieberman
survey and their successors, having received their right from the Republic of Texas,
itself, had their rights stripped by a federal trial court decision to which they were
not even parties is fundamentally offensive to due process. “Parties interested and
6

not joined in [a] suit will not be bound thereby.” Heirs of Tevis v. Armstrong, 9 S.W.
134, 136 (Tex. 1888). See also TEX. CONST. ART. I, § 19; U.S. Const. Amend. 14 §
1. “A judgment entered without notice or service is constitutionally infirm.” PNS
Stores, Inc. v. Rivera, 379 S.W.3d 267, 271-75 (Tex. 2012). It is undisputed that the
Sieberman Survey record title owners were not joined in the underlying federal suit
that formed the basis of Horton’s estoppel argument. 2 CR 1283-87.
The question remains, then, how can property owners be stripped of title when
never made party to the suit that took away their rights? The answer is that,
consistent with due process, they cannot be.
iii)

Horton presented no evidence to show mutuality of deed.

Quasi-estoppel requires mutuality of parties, and the doctrine may not be
asserted by or against a “stranger” to the transaction that would give rise to the
estoppel. Swilley v. McCain, 374 S.W.2d 871, 875-76 (Tex. 1964). Horton is a
stranger to Collins’ 1997 homestead deed from The Lipar Group, Inc. (“Lipar”) of
land in the David Thomas Survey, A-550. (2 CR 1203). Horton and Collins have no
privity or mutuality of deed or party in any chain of title to any land owned or
claimed by Horton. Since Horton has no “mutuality” of deed, Horton is a “stranger”
to the Lipar/Collins deed that purportedly gave rise to estoppel. Deutsche Bank Nat'l
Trust Co. v. Stockdick Land Co., 367 S.W.3d 308, 315 (Tex. App.—Houston [14th
Dist.] 2012) (holding that quasi-estoppel requires mutuality of parties).
7

More specifically, Lipar conveyed Collins land in the David Thomas Survey
in 1997 exclusive of any reference to the Sieberman Survey. (2 CR 1203). Horton
argued that Collins is estopped from claiming the Sieberman Survey exists because
a random number--“244 441”--was affixed inconspicuously to Collins’ 1997 Red
Oak Ranch subdivision plat. But no reference to the Sieberman Survey existed on
Lipar’s plat, nor does any reference appear in the document filed of public record.
Even if it did, in the absence of mutuality of deed between Horton and Collins, no
estoppel exists.

.-~-·--=

~

✓-·~

t•

,~..f~1-

.,
.
,,

I .
..

-.,

,

I

·-~ -:-,f',.....,.= .

.. ,,.::;:,e_-

.,
• ,ur

":':l',,,-.;~;-•-·

•

--~~--::-'"''

__,;-.

,.....

•ik~t:'~:.w.:'.'~
~::.:.:-----

. .,~. ~--··-

!1

:~-::·~..;:.•...;:.:,;
,::."':.=.=-n.

S:
A

NWIII a

~~

8

w.

---

iv)

Horton’s positions before governmental authorities vis-à-vis the
existence of the Sieberman Survey are strikingly inconsistent.

Indeed, if any party to this suit should be estopped, it is Horton. Quasiestoppel precludes a party from asserting, to another's disadvantage, a right
inconsistent with a position previously taken. Lopez v. Munoz, Hockema & Reed,
L.L.P., 22 S.W.3d 857, 864 (Tex. 2000). The doctrine applies when a person
maintains a position inconsistent with one to which he previously acquiesced, or
from which he accepted a benefit. Id. Horton’s admission of the existence of the
Sieberman Survey in its own surveys and submissions to governmental authorities
is inconsistent with its later assertion that the Sieberman Survey does not exist.
Consequently, the trial court erred granting summary judgment the Sieberman does
not exist when Horton confirmed it does by its own admission. 2 CR 1412.

-~-.....--

.....

~

we--

-c;;· . .
.

.

Colins 000172

9

B.

Conflicting evidence precluded summary judgment.

Evidence that shows a genuine issue of material fact precludes summary
judgment. Nixon v. Mr. Prop. Mgmt. Co., 690, S.W.2d 546, 548 (Tex. 1985).
Collins acquired their legal title to the Sieberman Survey, A-497, as successors to a
land patent issued by the State of Texas in a direct line from the sovereign. 2 CR
1261-71; 1283-87; 1304-09.

The Sieberman Survey, A-497, superior legal

boundaries are as set out in the perfected GLO patent. 13 R.R. Exhibit 162, 136, 137;
2 CR 1261-73, 1284, 1304-09. The GLO records show that the Sieberman Survey,
A-497, very much still exists.
The trial court granted and the Court of Appeals affirmed a summary
judgment that, as a matter of law, the Sieberman Survey no longer exists because of
the action of a federal trial court. 5 CR 2316. But state records of the GLO—as
opposed to federal standards and opinions—contradict the federal court’s holding
and thus contradict the very basis for the trial court’s holding and the Court of
Appeals’ affirmance. 2 CR 1261-71, 1283-87, 1304-09, 1327; 13 R.R. 136-37, 162.
See GLO Feb. 2016 screenshot below showing GLO’s online information for the
Frederick Sieberman Survey, A-497.

10

+ O~M&Coostalleases/Easements
+ 0Archi'resandRecoolsCcteclions
+

ORenewableEnergy

+

~oo;iilla!TexaslafldSUrvey

+ ~SUbmergeilTenslandSUrvey
+ ~O!he1Llaplayers

CootolNLmber:
BaseFi!Nll!lber.
Granff:F.SIEBERMW
~

SemNLmber.

/1Jsntt497

coun~Name: m OO.ERY
L,0H11>:

Rard'IName:
OrioiJ,ll<m:

The GLO certified records support that the Sieberman Survey exists and
contain the original land surveys replete with original footsteps and witness marks.
The only ancient boundary lines recognized and established for the Sieberman
Survey are corroborated by the GLO, Montgomery County, the City of Conroe,
Texas Railroad Commission and the owners of the Sieberman Survey, A-497. 2 CR
1261-73, 1284, 1304-09, 1327; and, 2 CR 1283-87; 2 CR 1378; 13 R.R. Ex. 178.
This was evidence that contradicted the federal court decision relied upon by Horton
and that precluded summary judgment.
11

II.

With no notice to the landowners of the Sieberman Survey, a federal
trial court opined that the Survey did not exist, extinguishing the vested
rights of Texas landowners. Can any court do so, consistent with Texas
real property law, and is any such decision binding?
The larger question presented by this case—and one that is of great

importance to the jurisprudence of the State—is whether a court, be it state or
federal, may simply “opine out of existence” the vested property rights of Texas
landowners and without following the rules of survey and property record
interpretation set forth by this Court and other Texas authorities. The Court of
Appeals’ Opinion stands for the prospect that any court may do just that.
A.

In interpreting Texas land grants, courts seek to carry out the
original intent of the grantor.

The law of real property is uniquely a creature of state law. Severance v.
Patterson, 370 S.W.3d 705, 713 (Tex. 2009). It is an issue of federalism and local
control, and both Texas and federal courts recognize the primacy of state law and
sources in determining matters of real property title. See id.; Phillips Petrol. Co. v.
Mississippi, 484 U.S. 469, 484, 108 S. Ct. 791 (1988).

Texas courts have

consistently held that when finding the lines of a survey, "[t]he cardinal rule is that
the footsteps of the original surveyor… should be followed." T.H. Investments, Inc.
v. Kirby Inland Marine, L.P., 218 S.W.3d 173, 207 (Tex. App.—Houston [14th Dist.]
2007, pet. denied). “Stare decisis is never stronger than in protecting land titles, as
to which there is great virtue in certainty.” Id. at 173.
12

The public policy of Texas, as announced in repeated decisions, demands the
sanctity of land titles emanating from the state, and, where ancient boundary lines
have been recognized for long periods of years, they will not be lightly disturbed, to
the detriment of those who have dealt upon the faith of them. Blaffer v. State, 31
S.W.2d 172, 191 (Tex. 1930). The 1944 federal court judgment did not rely upon
the original witness marks to determine the boundaries of the Hodge Survey. Indeed,
it is indisputable that the federal court did not apply state law, because the McComb
opinion shows the federal court ignored the state law and original witness marks.
McComb v. McCormack,159 F.2d, at 226. The Court of Appeals improperly adopted
the policy that federal courts can change long standing state land records with
complete disregard for state record keeping responsibility and state or constitutional
law.
B.

The McComb Court failed to follow Texas rules of construction and
interpretation of the original survey grant.

However, ignoring Texas rules of construction to ascertain boundaries, the
1944 federal court did not rely upon the original witness marks certified in the
GLO’s files to determine the boundaries of the Hodge Survey. McComb, 159 F.2d,
at 226. Nor did the federal court review or rely upon the footsteps or witness marks
for the Sieberman Survey certified in the GLO files. Id. Below see the July 2016
GLO Montgomery County plat showing the existential Sieberman and one-league
Hodge Surveys are mutually exclusive.
13

John N.
Tho,.,,a

• Oup1and&Coasta/LNse, IE1seme~ts
• DA.rclliYesa!!d~sColeclions

• ORenewableElltfaY
• [!JOliQinalTexaslalldS.r,,&y
• [!]SubmergedTeuslandS!Jrvey

The Sieberman Survey patent is conclusive against the state government as to
the issue of the patent. “If the state cannot deny its own act, no one else has the right
to do so for it.” Ney v. Mumme, 17 S.W. 407, 408 (Tex. 1886). Thus, the GLO’s

14

patent should not be denied or extinguished by a district court, let alone by one
applying an incorrect standard.
C.

McCombs did not and should not have bound the Court of Appeals,
nor did it provide any evidence of the state of Collins’ title.

The Constitutional infirmity of the McCombs judgment entirely aside—that
is, a judgment to which Collins and predecessors were not parties but that
nevertheless gravely affected their rights—the federal courts’ decisions should not
have served as rules of decision for the trial court and Court of Appeals, below.
McCombs did not follow Texas law with regard to the Sieberman Survey (indeed,
how could it have while effectively determining that a Texas General Land Office
certified land survey did not exist?), and, as such, it was an at-best faulty application
of Texas real property law.
Moreover, if you carry on a falsehood long enough does it make it right? If a
judgment is void, does seventy (70) years without complaint cure the error and make
it valid? Since the 1944 federal judgment is void because of non-joinder, do the unjoined Sieberman parties and their progeny/successors have any obligation to
investigate beyond evidence of adverse possession? The answer to these questions
must be in the negative. In the history of the case before the courts below, the unjoined Sieberman parties (oblivious to the void 1944 federal judgment and
machinations of the timber barons) continued to deal with the property as if it was
theirs. Importantly, no notice of the federal judgment was ever forwarded to the
15

Sieberman owners nor referenced in the judgment nor indexed in the county property
records to the Sieberman Survey.
“A cause of action accrues ‘when a wrongful act causes some legal injury,
even if the fact of injury is not discovered until later, and even if all resulting
damages have not yet occurred.’" S.V. v. R.V., 933 S.W.2d 1, 4 (Tex. 1996); Carl M.
Archer Trust No. Three v. Tregellas, 566 S.W.3d 281, 288 (Tex. 2018). In the instant
case, the Sieberman Survey comprises a tract of land, in which about 130 acres is
currently in dispute, that from 1836 until 2016 was thick forested land whose only
occupant was Collins and is shown on the following Montgomery County Appraisal
District screen print of about Oct. 2014 as the land just north of Collins’ home.

The faulty application of Texas law by a federal court should not deprive
Collins of their real property interest and rights, traceable in a direct line from the
sovereign Republic of Texas and up to the present day.
16

CONCLUSION
Texas property law will be devastated if the court of appeals’ December 20,
2018 decision stands. Descent from the sovereign—the longstanding starting point
for showing title under Texas law—will no longer be the law. A federal or state
court may simply ignore the fundamental, historical basis for property ownership in
Texas and bestow title on whomever is before it, regardless of the validity of the
claim. Does Texas allow a federal court to incorrectly determine its land title?
As a policy matter, the Court’s well-settled law is that summary judgment
must stand on its own merits and non-movant’s failure to respond cannot supply by
default summary judgment proof to establish a movant’s right. This Court has not
yet opined what happens when a non-movant [Collins] fully defends all grounds at
trial and advances a general point of error, but fails to argue unmeritorious grounds
in his brief, when movant [Horton] failed to meet its burden of proof. Here a federal
court’s erroneous application of Texas law improperly and surreptitiously
usurped the rights of Texas’ landowners and authority, then Horton compounded
the federal error with an unmeritorious estoppel fallacy to obtain title by default.
If the Court of Appeals judgment stands, Texas jurisprudence will experience
a sea-change that will permit any court to expropriate private title without regard to
Texas’ law or constitutional infirmity. It will also shift the burden of proof for
blatantly illogical, non-meritorious affirmative defenses asserted by a movant on
17

summary judgment and allow a movant to not only improperly prevail by default but
be granted land title upon a mere showing of purported procedural error. This Court
has the opportunity to preserve Texas property law and Texas land title and should
exercise that opportunity.
Most importantly, this Court should review to determine whether a district
court can “extinguish” an existing patented land survey certified by the GLO on
summary judgment predicated on a void federal judgment. The answer is, of course,
no because the very fact that the State of Texas’ oldest established government
agency, the GLO, provided evidence contrary to movant’s claim presents a genuine
issue of material fact precluding summary judgment. Further, does an owner have
an obligation to investigate land beyond adverse possession when the owner has no
notice of a void federal judgment that seizes his land? Again, no. As this Court
reasoned in Tregellas, without notice, any elements of adverse possession, or legal
injury until 2015, Collins, nor their predecessors, knew to seek judicial remedy.
Horton can make no claim similar to Collins with regard to the historic origin
of its own title. Horton can claim title only conferred by a federal court decision
going back about 70 years based on a bad survey—not the historic right asserted by
Collins. Horton's argument is now that a mistake has been made, everyone must
“live with it.” Whatever incorrect law or improper decisions the federal courts made,
Horton argued and the Court of Appeals agreed that they now trump some of the
18

oldest government documents in Texas. Falsehood, it argues, must be viewed as
fact.
And, while this Court is not a court of error correction but one of policy, policy
itself cries out for correction of this error. This is not simply about how one real
property dispute was decided but about how every real property dispute should be
decided. Will incorrect, constitutionally suspect decisions be allowed to change the
historic ownership of lands in Texas? Or will Texas continue to hew to the bedrock
principles it always has, insisting upon a traceable chain of title that reaches back to
the earliest days of independence? It is for this Court to decide.
PRAYER
For these reasons, Petitioners James K. Collins and Toni L. Sharretts Collins
respectfully request that this Court grant this motion for rehearing of their petition
for review, order full briefing on the merits, and ultimately reverse the judgment of
the Court of Appeals and remand this case to the trial court for further proceedings.
Petitioners further request such other relief to which they may be entitled.
Respectfully submitted,
By:

/s/ Toni L. Sharretts Collins
TONI L. SHARRETTS COLLINS
11054 North Hidden Oaks
Conroe, Texas 77384
(281) 827-7749 - Telephone
iceattorney@aol.com - email
ATTORNEY FOR PETITIONERS
19

CERTIFICATE OF COMPLIANCE
I hereby certify that the foregoing Motion for Rehearing is computergenerated, contains 3,786 words according to the word-count function of the
application used to create it, and complies with the word-count requirements of Rule
9.4, Texas Rules of Appellate Procedure. It is printed in 14-point Times New Roman
typeface.
/s/ Toni Sharretts Collins
Toni Sharretts Collins
CERTIFICATE OF SERVICE
On Oct. 11, 2019, I electronically filed this Motion for Rehearing with the
Clerk of the Court using the efile.TXCourts.gov electronic filing systems, which will
send notification of such filing to the following:
Paul J. McConnell, III and Ben Baring
De Lange Hudspeth, McConnell & Tibbets, LLP
1177 West Loop South, Suite 200, Houston, Texas 77027
(713) 871-2000 - telephone
/s/ Toni Sharretts Collins
Toni Sharretts Collins

20

